CERTIFICATE OF SERVICE AND COMPLIANCE
It is hereby certified
• that required privacy act redactions have been made to the foregoing,
• that this document complies with the typeface requirements of Supreme Court Rule
34.1(g) because the document was prepared in Microsoft Word using Times New Roman
12 font style and typesize,
• that, the portions of this document countable under Supreme Court Rule 33.2(b) contains
less than 40 pages, and therefore this Petition complies with the dictates of Rule 33.2(b),
• that, this item was converted to pdf format for electronic filing and was properly scanned
for viruses, with none being found, and
• that, copies of the petition and appendix were e-mailed and mailed to the following on this
10th day of August, 2020
Francesco Valentini
United States Department of Justice
Criminal Division, Appellate Section
950 Pennsylvania Ave. NW, Room 1264
Washington, DC 20530
202-598-1227
Email: francesco.valentini@usdoj.gov
Solicitor General of the United States
Department of Justice, Room 5614
950 Pennsylvania Ave., N.W.
Washington D.C. 20530-0001
/s/Frederick A. Duchardt, Jr.
FREDERICK A. DUCHARDT, JR.

